LT
uo  (SOCKLE

Legal Briefs

Est. 1923

E-Mail Address:

Omaha, Nebraska 68102-1214 contact@cocklelegalbriefs.com

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 19-968

CHIKE UZUEGBUNAM, et al.,
Petitioners,
v.
STANLEY C. PRECZEWSKI, et al.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the AMICUS CURIAE BRIEF
OF THE AMERICAN HUMANIST ASSOCIATION IN SUPPORT OF PETITIONERS in the
above entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b), being
prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes, and this
brief contains 3513 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d),

as needed.

Subscribed and sworn to before me this 3rd day of March, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

frrcmetenn| Kove Q. theo? Qudiao-h. Che
Notary Public

My Comm. Exp. September ยง, 2023

 

Affiant 39258
